   October 20, 2004




Acquisition
Overseas Purchase Card
Transactions by DoD
Dependents Schools-Europe
(D-2005-006)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AO                    Approving Official
APC                   Agency Program Coordinator
DoDEA                 Department of Defense Education Activity
DoDDS                 Department of Defense Dependents Schools
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
IG DoD                Inspector General of the Department of Defense
PMO                   Program Management Office
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 222024704




                                                                         October 20,2004
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISlTION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR. DEPARTMENT OF DEFENSE EDUCATION

SUBJECT: Report on Overseas Purchase Card Transactions by DoD Dependents
         Schools-Europe (Report No. D-2005-006)

      We are providing this report for review and comment. We considered
management comments on a draft version of this report when preparing the final report.
      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The DoD Education Activity comments were partially responsive. We request additional
comments on Recommendations l.a., l.b.(l), l.e., l.f., 2.b., and 3. As a result of
management comments, we revised Reco~endations1.a. and l.b.(l) and added
Recommendation 1.f., which is addressed to DoD Education Activitv. We also added
Recommendation 3., which is addressed to the DoD Purchase Card joint Program
Management Office. Therefore, we request that the DoD Education Activity and the
DoD Purchase Card Joint Program Management Office provide comments by
December 20,2004.
       Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Audls@,dodi~.osd.mil.Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet h t o c o l Router Network
(SIF'RNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert F. Prinzbach at (703) 604-8907 @SN 664-8907) or Mr. Albert L. Putnam
at (703) 604-8779 @SN 664-8779). See Appendix C for the report distribution. The
team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                       Assistant Inspector General
                                   for Readiness and Logistics Support
           Office of the Inspector General of the Department of Defense
Report No. D-2005-006                                                    October 20, 2004
   Project No. D2003LH-0052

                    Overseas Purchase Card Transactions by
                       DoD Dependents Schools-Europe

                                 Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, and purchase card users should read this report to help identify
potential problem areas in purchase card programs. This report identifies problems
within the DoD Dependents Schools-Europe (DoDDS-Europe) purchase card program.
After reading this report, managers should review their own purchase card programs and
implement the appropriate recommendations to strengthen their programs.

Background. This audit was performed to meet the requirements of Public
Law 107-314, “National Defense Authorization Act for Fiscal Year 2003,” December 2,
2002, which requires the Inspector General of the Department of Defense to perform
periodic purchase card audits. The purchase card is a Government-wide commercial
credit card that was established to streamline acquisitions by providing a low-cost,
efficient alternative for purchasing directly from merchants. The DoD Purchase Card
Joint Program Management Office is the executive agent for DoD purchase cards.
During the 6-month period ending March 31, 2003, DoD cardholders located outside of
the United States made about 525,000 transactions, valued at $350 million. For
transaction made by DoDDS-Europe, we used data mining techniques to identify high-
risk transactions that appeared to be prohibited by guidance or that met a fraud profile or
both. DoDDS-Europe is a component of DoD Education Activity (DoDEA) that operates
overseas schools from Bahrain to Iceland. DoDDS-Europe made about 12,000 purchase
card transactions, valued at $8.4 million, during the 6-month period ending March 31,
2003. We visited selected activities in Germany and Great Britain for audit verification.

Results. DoDDS-Europe did not implement effective internal controls over the purchase
card program before, during, or after purchase for the 22 accounts and 411 transactions,
valued at about $2.1 million, that we reviewed. The discrepancies included:

       •    21 of 22 accounts that did not have proper authorization or reasonable
            purchase limits;

       •    261 of 411 transactions, valued at $988,993, that were not supported by
            available documentation, permitted by guidance, or competitively acquired;
            and

       •    411 transactions, valued at about $2.1 million, that were not reconciled or
            approved prior to payment or properly accounted for upon receipt.

To improve controls, DoDEA should devote adequate human capital and travel resources
to program oversight and issue overarching program guidance that is consistent and
complete and is distributed to program officials. In addition, DoDDS-Europe
management needs to provide the discipline, structure, and climate necessary to
implement effective internal controls.

As a result of control weaknesses, DoDDS-Europe made $2.09 million in questionable
purchases1 including $113,3262 for merchandise that could not be located on property
records, $259,605 for official travel of DoDDS-Europe employees, and $76,220 of
purchases made without the required competition. In addition, DoDDS-Europe made up
to $22,574 in improper entertainment and refreshment purchases.3 Further, DoDDS-
Europe has no assurance that questionable or improper purchases will be prevented or
promptly identified, that purchased goods and services will be received and protected
from theft and unauthorized use, that reasonable prices will be paid for goods and
services, or that spending will be limited to available funding. See the Finding section of
the report for detailed recommendations.

Management Comments. The Director, DoDEA concurred with the draft
recommendation to devote adequate human capital and travel resources to program
oversight. He nonconcurred with the draft recommendation to issue overarching program
guidance or to revoke the entertainment guidance. The Director stated that existing
entertainment guidance was reasonable and had been coordinated with the Office of the
DoD Deputy General Counsel (Fiscal). He also stated that separate entertainment
guidance was necessary. However, the Director stated that DoDEA will issue purchase
card guidance to address competitive purchases and property records and will issue a
training guide to address food and water purchases. In addition, the DoDDS-Europe will
prepare a semiannual report addressing compliance with the DoD Purchase Card Program
and has taken administrative action against personnel involved with the entertainment
purchases. A discussion of management comments is in the Finding section of the report
and the complete text is in the Management Comments section.

Audit Response. We revised the recommendations on overarching and entertainment
guidance to recommend that the overarching guidance summarize rather than replace the
entertainment guidance. However, the entertainment guidance should be revised to
address additional types of entertainment and should be formally reviewed and approved
by the DoD Deputy General Counsel (Fiscal). The Director agreed to issue purchase
card guidance and training materials, but agreed to address only some issues in the
training materials. The problems with consistency, completeness, and distribution of
guidance could be minimized or prevented by addressing all issues in the overarching
guidance, which would provide cardholders with the information necessary to ensure the
appropriate use of the Government purchase card. We have added recommendations that
the DoDEA and the DoD Purchase Card Joint Program Management Office review the
DoDDS-Europe semiannual report for compliance. We request that DoDEA and the
DoD Purchase Card Joint Program Management Office provide comments on the revised
and added recommendations by December 20, 2004.


1
    Questionable transactions have insufficient documentation to determine whether they are valid.
2
    Two months after our field visit, a DoDDS-Europe official stated that although most of the records of
     accountable property had been corrected, they were still unable to properly account for property valued at
     $13,755.
3
    Improper transactions are purchases intended for Government use but are not permitted by law, regulation,
     DoD policy, or DoD Component policy.



                                                        ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Finding
     Controls Over DoD Dependents Schools-Europe Purchase Card Program    4

Appendixes
     A. Scope and Methodology                                            30
          Management Control Program Review                              31
     B. Prior Coverage                                                   33
     C. Report Distribution                                              35

Management Comments
     Director, DoD Education Activity                                    37
    Section 1007 of Public Law 107-314, “National Defense Authorization Act for
    Fiscal Year 2003,” December 2, 2002, requires that the Inspector General
    Department of the Defense and audit organizations within the Military Services
    perform periodic audits to identify:

          “(A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
               prohibited items; and

           (C) categories of purchases that should be made by means other than
               purchase cards in order to better aggregate purchases and obtain
               lower prices.”


Background
    DoD Education Activity. The DoD Education Activity (DoDEA) is an agency
    of the DoD. It is headed by a director who oversees all agency functions from
    DoDEA headquarters in Arlington, Virginia. DoDEA schools are divided into
    subcomponents. DoD Dependents Schools (DoDDS) operates overseas schools
    through DoDDS-Europe and DoDDS-Pacific. DoD Domestic Dependent
    Elementary and Secondary Schools operates schools in the United States.
    DoDEA schools serve the children of Service members, U.S. Government
    employees, and contract employees throughout the world. DoDEA operates
    222 fully accredited public schools.

    DoDDS-Europe. As of October 2004, DoDDS-Europe operated 112 schools
    from Bahrain to Iceland and one school dormitory. We reviewed 411 purchase
    card transactions from DoDEA-Europe, including 195 transactions made by
    cardholders in Germany and 216 transactions made by cardholders in Great
    Britain. In Germany, we reviewed transactions at three offices and three schools.
    In Great Britain, we reviewed transactions at three offices, one school, and one
    dormitory. The London Central High School and the London Central High
    School Dormitory, for students in grades 9 through 12, are on Daws Hill Royal
    Air Force Base, United Kingdom. Both dormitory and non-boarding school
    students attend London Central High School. Dormitory students can be children
    of Service members, DoD civilian employees, other U.S. Government employees,
    and U.S. Government contractors in foreign countries. Dormitory students
    receive room, board, and regularly scheduled trips and extracurricular activities.
    Children of Service members and DoD civilian employees pay no tuition and
    receive round-trip transportation from school to home three times per year.
    Students who are not children of Service members or DoD civilian employees pay
    tuition.

    Government Purchase Card Program. The purchase card is a
    Government-wide commercial credit card used to purchase goods and services.
    Government purchase cards were established to streamline acquisitions by
    providing a low-cost, efficient alternative for obtaining goods and services
    directly from merchants. The General Services Administration awarded the first


                                        1
Government-wide purchase card contract in 1989, which is when DoD entered the
program. On October 13, 1994, the President issued Executive Order 12931,
which mandated expanded use of purchase cards and the use of purchase cards by
the offices that use the supplies or services purchased.

DoD Purchase Card Program. Section 2784, title 10, United States Code,
“Management of Credit Cards,” (10 U.S.C. 2784) requires the Secretary of
Defense to prescribe regulations governing the use and control of credit cards that
are issued for official use. Regulations must include safeguards and internal
controls to ensure that a record of each cardholder’s purchase limit exists, that
charges on each monthly statement are reconciled with supporting documentation,
and that necessary records are retained. Section 2784 also requires that
regulations must provide that appropriate adverse personnel actions or other
punishment be imposed when DoD employees misuse purchase cards.

Government Accountability Office (GAO) has identified categories of purchase
card misuse, such as improper and questionable transactions. GAO defines
improper transactions as purchases intended for Government use, but not
permitted by law, regulation, DoD policy, or DoD Component policy.
Questionable transactions are transactions with insufficient documentation to
determine whether they are valid.

DoD Purchase Card Joint Program Management Office. The DoD Purchase
Card Joint Program Management Office (PMO) was established by the Deputy
Secretary of Defense in March 1998. The PMO is the executive agent for DoD
purchase cards. The PMO is responsible for coordinating contract requirements
with the General Service Administration, deploying a standard DoD-wide card
management and reconciliation system, and developing a DoD-wide training
program. Representatives from each of the Military Departments, the Defense
Logistics Agency, and the Defense Finance and Accounting Service staff the
PMO. Of the 5.4 million purchases made by DoD cardholders during the
6-month period ending March 31, 2003, about 525,000 purchases, valued at
$350 million, were made by cardholders located outside the United States.

How the DoD Program Works. According to a PMO official, Revision 1 of
DoD “Government Purchase Card Concept of Operations” (DoD Concept of
Operations), March 31, 2003, was developed by an Integrated Project Team,
under the guidance of the PMO. The DoD Concept of Operations provides an
overview of the processes to establish and operate a purchase card program. It
provides DoD Components a foundation upon which to build their specific
Government purchase card guidance. DoD Components are responsible for
distributing cards, training employees, and day-to-day management of the
purchase card program. Each participating Component designates an office to
manage the program and to ensure that training is provided and that an annual
oversight review of the program is performed.

DoDEA Purchase Card Program. DoDDS-Europe made approximately
12,000 purchase card transactions, valued at $8.4 million, during the 6-month
period ending March 31, 2003. The DoDEA guidance, “Government Purchase




                                     2
           Card (US Bank I.M.P.A.C.4 Government Services) Program” (the DoDEA
           Program Guidance), January 2000, and DoDEA Administrative
           Instruction 8000.1, “Use of The Governmentwide Purchase Card,” April 3, 2001,
           augment other Federal and DoD regulations in prescribing policies and
           procedures for the use of purchase cards by DoDEA employees. The agency
           program coordinator (APC), approving officials (AOs), and cardholder are
           responsible for aspects of the DoDEA purchase card program.

                   APC Responsibilities. The APC is responsible for the purchase card
           program and determines who participates in the program. DoDEA has an APC
           and DoDDS-Europe has an APC. The APC is responsible for providing purchase
           card training. Other duties include conducting yearly on-site reviews of the AO
           and cardholder records, which includes verifying that the files have adequate
           documentation and initiating the revocation and suspension of purchase card
           account privileges for individuals who violate purchase card procedures.
                   AO Responsibilities. The AO is responsible for reviewing cardholders’
           monthly statements and signing the statements to confirm their accuracy. By
           signing the monthly statement, the AO also verifies that all transactions were
           necessary Government purchases and in accordance with governing policies and
           procedures. The AO is responsible for recommending the purchase card limits for
           cardholders and signing purchase requests to authorize transactions. Other duties
           include resolving questionable purchases with the cardholder and maintaining
           official documentation to support transactions.

                  Cardholder Responsibilities. The cardholder is an individual who is
           authorized to make official purchases up to a specified dollar limit. The
           cardholder must ensure that all purchases are made for a legitimate need at a fair
           and reasonable price. The cardholder’s duties include preparing and signing
           purchase requests, maintaining a purchase log, reviewing all transactions in a
           timely manner, approving monthly statements, and tracking and verifying receipt
           of items purchased. The cardholder must also maintain an audit trail of
           purchases, including receipts and other supporting documentation, and retain all
           records in accordance with Government standards.


Objectives
           Our overall audit objective was to determine whether purchase card transactions
           originating outside the United States were appropriate. Specifically, we used data
           mining techniques to identify high-risk transactions that appeared to be prohibited
           by guidance or that met a fraud profile or both. We limited the scope of this
           project to selected transactions by DoDDS-Europe. We reviewed the
           management control program as it related to the overall objective. See
           Appendix A for a discussion of the scope and methodology and the review of the
           management control program. See Appendix B for prior coverage related to the
           objectives.

4
    Purchase cards were formerly known as International Merchant Purchase Authorization Cards.



                                                     3
                    Controls Over the DoD Dependents
                    Schools-Europe Purchase Card Program
                    Implementation of controls over the purchase card program in DoDDS-
                    Europe needed improvement. Specifically, for 22 accounts and
                    411 transactions, valued at about $2.1 million, DoDDS-Europe did not
                    follow internal controls before, during, or after purchases. Specifically,
                    the discrepancies included:

                             •   21 accounts that did not have proper authorization or
                                 reasonable purchase limits;

                             •   261 transactions, valued at $988,993, that were not supported
                                 by available documentation, permitted by guidance, or
                                 competitively acquired; and

                             •   411 transactions, valued at about $2.1 million, that were not
                                 reconciled and approved prior to payment or properly
                                 accounted for upon receipt.

                    Some accounts and transactions had multiple discrepancies. When we
                    summarized more than one discrepancy, we only counted the account or
                    transaction with multiple discrepancies once.

                    Controls needed improvement because DoDEA management did not
                    adequately oversee the purchase card program. Specifically, DoDDS-
                    Europe management did not devote adequate human capital and travel
                    resources to program oversight, and DoDEA management did not create
                    guidance that was consistent, complete, and distributed to program
                    officials. In addition, DoDEA management did not provide the discipline,
                    structure, and climate necessary to implement effective internal controls.

                    As a result, DoDDS-Europe made $2.09 million in questionable purchases
                    including $113,3265 for merchandise that could not be located on property
                    records, $259,605 for official travel of DoDDS-Europe employees, and
                    $76,220 of purchases made without the required competition. In addition,
                    DoDDS-Europe used up to $22,574 in operation and maintenance funds
                    for improper entertainment and refreshment purchases. Further, DoDDS-
                    Europe had no assurance that questionable or improper purchases would
                    be prevented or promptly identified, that purchased goods and services
                    would be received and protected from theft and unauthorized use, that
                    reasonable prices would be paid for goods and services, or that spending
                    would be limited to available funding.



5
    Two months after our field visit, a DoDDS-Europe official stated that although most of the records of
     accountable property had been corrected, DoDDS-Europe was still unable to account for property valued
     at $13,755.



                                                      4
Internal Controls Requirements
           According to the GAO publication, “Standards for Internal Control in the Federal
           Government,” November 1999, internal controls should provide reasonable
           assurance that an organization’s resources are used effectively and efficiently.
           Internal controls provide reasonable assurance that an organization complies with
           applicable laws and regulations. Effective internal controls require a positive
           control environment. A positive control environment provides the discipline,
           structure, and climate that influence the quality of internal controls. Management
           plays a key role in establishing a positive control environment because
           management sets and maintains the organization’s ethical tone, provides guidance
           for proper behavior, removes temptations for improper behavior, and provides
           appropriate discipline. Management needs to establish policies and procedures
           for processing approvals, limiting spending to budgeted funds, performing
           reconciliations, retaining records, safeguarding assets, and disciplining personnel.

           DoD Financial Management Regulation, volume 10, chapter 12, “Miscellaneous
           Payments,” February 1996; 10 U.S.C. 2784; and DoDEA Program Guidance
           require that records be retained to support the integrity of the purchase card
           program and to facilitate in the reconciliation and payment of purchase card
           transactions. Cardholders are required to establish clear audit trails for purchase
           card transactions by maintaining documentation to support each purchase
           including requisitions, logs, receipts, charge tickets, and credit slips.


Implementing Internal Controls Before Purchase
           Before purchases, DoDDS-Europe did not follow the internal controls for
           authorizations or purchase limits for 21 of the 22 accounts6 we reviewed.
           Specifically:

                    •   1 account had improper authorization,

                    •   12 accounts had unreasonable purchase limits, and

                    •   8 accounts had both improper authorization and unreasonable
                        spending limits.

           Account Authorization
           The 9 accounts that did not have proper authorization were used to make 162 of
           the 411 transactions, valued at $1.9 million. The Federal Acquisition
           Regulation (FAR) 1.603-3, “Appointment,” and FAR 13.301, “Governmentwide

6
    We reviewed 19 cardholders who had 22 accounts. Three cardholders had two accounts each. For
    two cardholders, one account was for purchases and the other account was for contract payments. For
    one cardholder, one account was for a cancelled purchase card and one account was for the replacement
    purchase card.



                                                      5
Commercial Purchase Card,” require that cardholders have written appointment
letters. Appointment letters authorize cardholders to make purchase card
transactions up to a specified dollar limit. Of the 9 accounts:

       •   4 accounts with 66 transactions, valued at $389,760, did not have
           appointment letters in the records;

       •   3 accounts with 72 transactions, valued at $972,168, had an
           appointment letter that gave a range of $25,000 to $1 million, rather
           than a specific single purchase limit;

       •   1 account with 19 transactions, valued at $14,655, had an appointment
           letter that was not in effect on the date the purchases were made; and

       •   1 account with 5 transactions, valued at $543,876, had both an
           appointment letter that gave a range of $25,000 to $1 million and was
           not in effect on the date the purchases were made.

The APC at DoDDS-Europe stated that appointment letters were not always
retained for cardholders who were no longer employed by DoDDS-Europe or who
had been issued new appointment letters.

DoD should have a record of the spending limits for each cardholder, as required
by 10 U.S.C. 2784. In addition, DoD Financial Management Regulation,
volume 10, chapter 12, requires documentation to support each purchase.
Because appointment letters are the only historical document showing the single
purchase limit in existence at the time of the purchase, appointment letters should
be retained.

Purchase Limit
Purchase limits were not reasonable for 20 of the 22 accounts reviewed.
According to 10 U.S.C. 2784, DoD is required to have specific policies regarding
purchase limits in order to minimize the financial risk to the U.S. Government and
to ensure the integrity of the cardholders. The General Services Administration,
“Blueprint for Success: Purchase Card Oversight,” April 2002, states that
purchase limits that are realistic, but not excessive, will limit cardholder misuse.
Realistic purchase limits will minimize cardholder misuse and the financial risk to
the U.S. Government.

Both single purchase and monthly purchase limits should be established for each
account. A single purchase limit is the maximum a cardholder can spend per
transaction. A monthly purchase limit is the maximum a cardholder can spend
per month. Of the 20 accounts:

       •   4 accounts had unreasonable single purchase limits,

       •   4 accounts had unreasonable monthly purchase limits, and

       •   12 accounts had unreasonable single and monthly purchase limits.


                                     6
Single Purchase Limits. Single purchase limits were not reasonable for
16 accounts reviewed. Of the 16 accounts, 13 accounts were not reasonable when
evaluated against the highest single purchase of each account and 3 accounts were
not reasonable when evaluated against the DoDEA Program Guidance.

        Evaluation of Highest Single Purchases. For 13 accounts, the single
purchase limits were not reasonable when evaluated against the highest single
purchase of each account. When the highest single purchase was less than one
third of the single purchase limit, we determined that the single purchase limit
was too high, and therefore, unreasonable. Table 1 shows the single purchase
limit for each of the 22 accounts compared with the highest single purchase made
in the 6-month period ending March 31, 2003.


 Table 1. Single Purchase Limits Compared With Highest Single Purchase
        Single                   Highest                  Number              Limit(s)
    Purchase Limit           Single Purchase            of Accounts          Reasonable

        $ 2,500                  $    195                      1                No
          25,000                   11,948                      1                Yes
          25,000                    5,955                      3                No
          25,000                    2,894                      4                No
          25,000                      771                      2                No
          25,000                       98                      2                No
         100,000                    4,797                      1                No
        Unknown*                  198,623                      8              Unknown

   *For four accounts, the single purchase limit was unknown because the cardholders’
   appointment letters were not available. For four accounts, the single purchase limit was
   unknown because the appointment letters stated a range ($25,000 to $1,000,000) instead of a
   specific dollar amount for the single purchase limit.


        Compliance With DoDEA Program Guidance. For three accounts,
DoDDS-Europe did not establish single purchase limits that complied with the
DoDEA Program Guidance, which requires that warranted contracting officers
make all contract payments over $25,000. Because none of the cardholders
reviewed were warranted contracting officers, the single purchase limits should
not have exceeded $25,000. However, 3 cardholders, with 3 accounts, made
12 contract payments that exceeded $25,000, totaling $1.3 million. The DoDEA
Program Guidance also prohibits contract payments over $100,000 but one of the
three cardholders made six contract payments that exceeded $100,000, totaling
$1 million.




                                         7
Monthly Purchase Limits. Monthly purchase limits were not reasonable for
16 accounts reviewed. Of the 16 accounts:

        •   9 accounts had monthly purchase limits that were unreasonable when
            evaluated against the highest monthly purchases,

        •   1 account had monthly purchase limits that were unreasonable when
            evaluated against the annual budgets, and

        •   6 accounts had both monthly purchase limits were unreasonable when
            evaluated against the highest monthly purchases and the annual
            budgets.

        Evaluation of Highest Monthly Purchases. For 15 accounts, the
monthly purchase limits were not reasonable when evaluated against the highest
monthly purchases. When the highest monthly purchases were less than one third
of the highest monthly purchase limit, we determined that the monthly purchase
limit was too high, and therefore, unreasonable. Table 2 shows the highest
monthly purchase limit for the 22 accounts compared with the highest monthly
purchases in the 6-month period ending March 31, 2003.


              Table 2. Monthly Purchase Limit Compared With
                        Highest Monthly Purchases

   Highest Monthly             Highest                  Number              Limit(s)
    Purchase Limit         Monthly Purchases          of Accounts          Reasonable

     Unknown1                 $    195.00                    2             Unknown
    $1,000,000                 337,202.68                    1               Yes
       900,000                 390,588.22                    1               Yes
       700,000                 130,370.50                    2               No
       500,000                 353,301.49                    1               Yes
       250,000                  33,430.68                    1               No
       100,000                  43,680.85                    1               Yes
       100,000                  16,346.98                    5               No
        75,000                  39,948.07                    1               Yes
        75,000                  12,511.08                    6               No
        20,000                   3,878.65                    1               No
    1
     For two accounts, the monthly purchase limit was unknown because the monthly statements
    for the accounts were not available.


       Evaluation of Annual Budgets. The monthly purchase limits were not
reasonable when evaluated against budgeted funds for seven of the accounts
reviewed. To determine whether the monthly purchase limits were reasonable,
we analyzed all accounts at each school, including 3 accounts that were not
included in the 22 accounts selected. We compared the annualized total monthly
purchase limit (total monthly limit of all accounts at the school multiplied by
12 months) to


                                        8
    each school’s annual budget as of August 2003 for goods or services that can be
    purchased with the purchase card. Table 3 shows the results of our comparison of
    the total monthly purchase limit to the schools’ budgets.


                    Table 3. Monthly and Annual Purchase Limits
                           Compared With Annual Budgets

                                                                       Annual Limit
                               Purchase Card Limit         Annual       in Excess of
             School            Monthly      Annual         Budget      Annual Budget

      Aukumm Elementary       $150,000    $ 1,800,000     $ 75,914       $1,724,086
      London Central High
         and Dormitory          275,000       3,300,000    384,824         2,915,176
      Mannheim High             150,000       1,800,000     82,317         1,717,683
      Wiesbaden High            300,000       3,600,000    123,354         3,476,646

         Total                $875,000    $10,500,000     $666,409       $9,833,591




Implementing Internal Controls During Purchase
    DoDDS-Europe did not follow internal controls during purchase for 261 of
    411 transactions, valued at $988,993. Specifically, 261 transactions were either
    not supported by available documentation, not permitted by guidance, or not
    competitively acquired. Some transactions had multiple discrepancies. When we
    summarized more than one discrepancy, we only counted the transaction with
    multiple discrepancies once.

    Transaction Authorization Documentation
    Out of 411 transactions, 198 transactions, valued at $912,856, did not have proper
    authorization documentation. DoDEA Program Guidance requires the AO to
    authorize purchases by signing a purchase request. The AO signature designates
    that the purchase meets all program conditions and is for official use. In addition,
    training documents require purchase requests to be signed by the cardholder. The




                                          9
cardholder’s signature designates that the goods or services are required.
However, purchase requests could not always be located and were not always
signed.

       •   For 31 transactions, valued at $58,246, the purchase request could not
           be located.

       •   For 38 transactions, valued at $25,573, the purchase request did not
           have an AO signature.

       •   For 129 transactions, valued at $829,037, the purchase request had
           neither an AO nor a cardholder signature.

Entertainment and Refreshment Purchases
Out of the 411 transactions, 62 transactions for entertainment and refreshments,
valued at up to $22,574, were not permitted by the DoDEA criteria that was in
effect when the transactions were made. DS Regulation 7100.3, “DoD
Dependents Schools Use of Appropriated Funds,” April 17, 1990, did not permit
entertainment and refreshment purchases. In addition, DoD Financial
Management Regulation, volume 10, chapter 11, “Payment as Reimbursement for
Personal Expenditures,” February 1996, states that, as a general rule, appropriated
funds cannot be used for entertainment except when specifically authorized by
statute.

Entertainment Purchases. DS Regulation 7100.3 did not permit
43 entertainment purchases, totaling $20,075, at the London Central High School
Dormitory for field trips for the dormitory students and their chaperones.
DS Regulation 7100.3 provides that appropriated funds cannot be used to
purchase:

       •   entertainment for students and employees;

       •   field trips that are not normally supplied as part of the school
           curriculum by comparable tax-supported public schools in the United
           States; or

       •   fees, transportation, or other costs used in student activities that are not
           programmed as part of the standard course of instruction or not
           formally recognized as an extra-curricular activity.

Table 4 shows the types of entertainment, which were primarily field trips, the
number of purchases for that type of activity, and the total value of the purchases.
The field trips were to sports activities, such as indoor water parks, laser tag,
go-karts, and paintball; theaters; motion pictures; spectator sports, such as
basketball and hockey games; and sightseeing. The entertainment purchases were
for optional weekend field trips that were available, free of charge, to all
dormitory students but were not available to non-boarding students of London
Central High School.



                                     10
                    Table 4. Entertainment Purchases at the
                    London Central High School Dormitory

                                                 Number of           Value of
           Type of Entertainment                 Purchases           Purchases

     Sports Activity                                  16           $ 7,583.82
     Theater                                          13             5,456.64
     Motion Picture                                    8             5,375.29
     Spectator Sports                                  4               566.49
     Sightseeing                                       1               475.32
     Sports Activity and Motion Picture                1               617.00

       Total                                          43            $20,074.56


         Field Trips at Other Tax-Supported Public Schools. Not all tax-
supported public boarding schools in the United States supply free weekend field
trips. According to DS Regulation 7100.3, the standard for determining whether
field trips are allowed is whether they are “normally supplied as part of the school
curriculum by comparable tax supported schools in the United States.” We
examined entertainment at other tax-supported schools in the United States, such
as those operated by the U.S. Congress and the Bureau of Indian Affairs.

        The U.S. Congress operates two boarding schools for Pages. The Pages
are high school students who attend morning classes and principally serve as
messengers for the U.S. House and Senate. The residence halls are funded by
appropriated funds and student fees. House and Senate Pages pay a monthly fee
to a revolving fund. Lodging, meals, and related services for House Pages are
paid through the revolving fund, as established in 2 U.S.C. 88b-5. Food and fund
activities for Senate Pages are paid through the revolving fund, as established
in 2 U.S.C. 88b-7. According to officials at the U.S. Senate Page School, the
revolving fund is used to pay for field trips, and appropriated funds are not used
for student entertainment expenses. Appropriated funds are only used to pay for
transportation and chaperones.

        For schools operated by the Bureau of Indian Affairs, 25 Code of Federal
Regulations, section 36.74 (2003), “Homeliving (dormitory operations),”
provides that leisure-time activities shall be provided to dormitory students.
Those activities may include recreational activities, clubs, arts and crafts, and the
reading of newspapers and periodicals. According to an official at the Bureau of
Indian Affairs, appropriated funds are used to pay for students’ leisure-time
activities.

       We contacted officials at school districts in two states and could find no
examples of where the school funded weekend field trips for students. For
students at those tax-supported public schools, either the students or the parents
were responsible for paying for trips similar to those supplied, free of charge, to
students at the London Central High School Dormitory.



                                     11
       Field Trips Are Optional. At the London Central High School
Dormitory, the field trips were optional. By comparison, according to officials at
the U.S. Senate Page School, most field trips offered to the Senate Pages are
mandatory. The Senate Pages are required to attend all educational and
enrichment field trips. Only recreational activities such as trips to amusement
parks are optional for Senate Pages, and those trips are funded by the students.

        Field Trips Not Available to All Students. The field trips at London
Central High School Dormitory were not made available to non-boarding
students. DS Regulation 7100.3 states that appropriated funds can only be used
for student activities that are programmed as part of the standard course of
instruction or are formally recognized as an extra-curricular activity. The
DoDEA “Community Strategic Plan,” March 2001, provides that all students
should have equitable access to programs. The Community Strategic Plan also
provides that “all students will have access to varied and challenging learning
opportunities.” However the non-boarding school students who attended London
Central High School were not allowed to participate in the field trips. By
comparison, an official at the Bureau of Indian Affairs stated that when boarding
and non-boarding students attend school together, the non-boarding students are
given the same opportunities to participate in field trips as the boarding students.

Refreshment Purchases. Refreshment purchases include food, drinks, and
water. Of the 411 purchases, 19 purchases, valued at $2,499, included
refreshment purchases, which were not permitted.

        Food and Drink Purchases. Of the 19 purchases, 17 purchases,
totaling $2,445, included food and drinks, which were not permitted. The
purchases were for non-boarding students, DoDDS-Europe employees, and
guests. DS Regulation 7100.3 provides that, except for subsidized school lunches
or food for dormitory students, appropriated funds cannot be used to purchase
food for students or refreshments for DoDDS employees, students, and guests.

        Drink purchases included coffee breaks for 1-day conferences at a hotel
and food and drinks for elementary school students, high school home economics,
and special education classes. According to DoDDS-Europe officials, purchases
were not for subsidized school lunches but were for other meals, snacks, and
curriculum-related activities, such as cooking and teaching math with candy.
According to DoDDS-Europe officials, the food for special education classes was
used to teach daily living skills, including food preparation. These purchases
were prohibited by DS Regulation 7100.3.

        Water Purchases. Of the 19 purchases, 2 purchases, totaling $53.97,
were for water, which was not permitted. The water was for DoDDS-Europe
employees. DoD Financial Management Regulation, volume 10, chapter 12,
provides that appropriated funds cannot be used to purchase water except in
specific circumstances, such as when the public water is unsafe for human
consumption.




                                     12
    Travel Purchases
    Twenty-three purchase card transactions for official travel by DoDDS-Europe
    employees that included meals, lodging at conferences, and transportation, valued
    at $259,605, were not permitted. DoDEA Program Guidance prohibits the use of
    the purchase cards for official travel expenses including transportation, food,
    drinks, entertainment, lodging, rental cars, and gas. The employees should have
    used individual Government travel cards and filed a travel voucher for official
    travel reimbursement. Alternatively, a centrally billed travel card could have
    been used to pay for the conferences.

    Competitive Purchases
    For transactions over $2,500 that were not contract payments, DoDDS-Europe did
    not competitively acquire 38 out of the 46 transactions, valued at $76,220. The
    FAR 13.104, “Promoting Competition,” requires maximum practicable
    competition for transactions over $2,500 that are not contract payments.
    Maximum practicable competition requires quotes from a minimum of
    three sources. DoDDS-Europe did not obtain a minimum of 3 quotes for
    38 non-contract transactions that were over $2,500. For example, a DoDDS-
    Europe cardholder purchased football equipment, valued at $3,630, and did not
    obtain a minimum of three quotes.


Implementing Controls After Purchase
    DoDDS-Europe did not follow internal controls after purchase for all 411 of the
    transactions reviewed, valued at roughly $2.1 million. Specifically, transactions
    were not reconciled or approved prior to payment or properly accounted for upon
    receipt. Some transactions had multiple discrepancies. When we summarized
    more than one discrepancy, we only counted the transaction with multiple
    discrepancies once.
    Reconciliation and Approval of Monthly Statements. DoDDS-Europe did not
    reconcile and approve monthly statements for 267 of 411 transactions, valued at
    $951,078. Charges on each monthly statement are required by 10 U.S.C. 2784 to
    be reconciled with supporting documentation. Supporting documentation
    includes merchant receipts and purchase logs. However, supporting
    documentation could not always be located, and therefore, statements could not
    be reconciled. Some transactions had multiple discrepancies.

           •   For 84 transactions, valued at $409,185, the transactions were not on
               the cardholders’ purchase logs.

           •   For 116 transactions, valued at $762,640, the merchant receipts were
               not retained.




                                        13
       •   For two transactions, valued at $83,616, the monthly statements were
           not retained.

       •   For 201 transactions, valued at $916,236, the cost on the monthly
           statement did not reconcile with the cost on the purchase log or
           merchant receipts, or both.

Statements should be reconciled monthly to ensure that the correct amount is
billed. Reconciliations are also necessary for proper budget execution because a
DoDDS-Europe official stated that the schools use the purchase log to track
expenditures; therefore, it is important for the purchase log to accurately reflect
the actual expenditures. However, the purchase log did not always reflect the
amount billed. Without recording actual expenditures on the purchase log, the
schools could not know the exact status of the budget execution.

The DoD Concept of Operations requires the cardholder to approve the monthly
statement and the AO to sign the monthly statement. The cardholder’s signature
indicates that, unless otherwise noted, the purchases and amounts are correct; are
required to fulfill mission requirements; are not for personal use; and are not
items specifically prohibited by law, regulation, or guidance. The AO signature
indicates that the transactions are legal, proper, and correct. However, the
cardholders and the AOs did not always approve the monthly statement.

       •   For 5 transactions, valued at $5,414, the monthly statement did not
           have a cardholder signature.

       •   For 125 transactions, valued at $624,747, the monthly statement did
           not have an AO signature.

       •   For 26 transactions, valued at $130,811, the monthly bank statement
           had neither a cardholder nor an AO signature.

Recording of Items Received. DoDDS-Europe did not ensure that goods and
services were properly accounted for upon receipt for all 411 transactions
reviewed, valued at about $2.1 million. The DoD Concept of Operations requires
that purchase logs show the date the goods or services were received and the
name of the individual receiving the goods or services. DoDEA Manual 4100.2,
“Material Management Manual,” August 28, 1997, also requires accountable
property, such as computers, printers, and projectors, to be recorded on property
records. However, DoDDS-Europe did not always properly account for goods
and services.

       •   For all 411 transactions, valued at about $2.1 million, the purchase log
           did not show the name of the individual who received the goods or
           services.




                                     14
                    •    For 41 out of 477 accountable property transactions, valued at
                         $113,326, DoDDS-Europe had no audit trail to connect the
                         transactions with the property records at the time of our visit.

            Two months after our visit, a DoDDS-Europe official stated that most of the
            records of accountable property had been corrected. However, the official stated
            that DoDDS-Europe was unable to properly account for one computer, four video
            projectors, and five printers. As of November 2003, the total value of the
            property that DoDDS-Europe could not account for was $13,755.

            Property received should be recorded to ensure that all items have been received,
            particularly when one order arrives in multiple shipments. Recording accountable
            property helps protect property from misuse and theft.


Overseeing the Purchase Card Program
            DoDEA management did not adequately oversee the purchase card program.
            Specifically, DoDDS-Europe management did not devote adequate human capital
            and travel resources to program oversight and DoDEA management did not create
            guidance that was consistent, complete, and distributed to program officials. In
            addition, DoDDS-Europe management did not provide the discipline, structure,
            and climate necessary to implement effective internal controls.

            Human Capital Resources
            DoDDS-Europe management did not devote adequate human capital to program
            oversight. A June 2003 program management review by the APC at DoDEA
            headquarters determined that DoDDS-Europe needed an additional APC for the
            oversight process. There was only 1 APC in Europe to oversee the program,
            which had 306 cardholders and 200 AOs at locations from Iceland to Bahrain. On
            July 14, 2003, the APC at DoDEA headquarters recommended two full time
            APCs to oversee the program in Europe. The recommendation was based on the
            magnitude and size of the European program.

            DoDDS-Europe officials agreed that one APC was not adequate to oversee the
            purchase card program. On August 8, 2003, DoDDS-Europe requested approval
            to hire an additional full-time APC. According to a DoDDS-Europe official, the
            additional position was approved on September 9, 2003. A DoDDS-Europe
            official stated that the second APC was selected on September 2, 2004.

            Travel Resources
            DoDDS-Europe management did not devote adequate travel resources for
            required annual inspections of the 306 cardholders and 200 AOs located from
            Iceland to Bahrain. Because of a shortage of travel funds, annual inspections

7
    Forty-seven of the 411 transactions were for accountable property.



                                                       15
were limited to the area where the APC in Europe was stationed and to locations
where the APC in Europe was to provide training. However, the DoDEA
Program Guidance requires APCs to conduct annual on-site inspections of
purchase card files. DoDDS-Europe should devote the travel resources necessary
to complete the required annual on-site inspections by the APC in Europe. A
DoDEA official stated that for FY 2005, the DoDEA European Procurement
Office has received approval for funding to perform the annual inspections.

Existing Guidance
Existing guidance was inconsistent and incomplete. In addition, the existing
guidance had not been distributed to program officials at DoDDS-Europe.

Consistency of Guidance. DoDEA management established school policies that,
contrary to DS Regulation 7100.3, endorsed entertainment and refreshment
purchases. The school policies endorsed entertainment for the London Central
High School Dormitory students and food and drinks for students in kindergarten,
elementary school, special education, and home economics classes.

        Entertainment for Dormitory Students. DoDDS management
established a school policy for the London Central High School Dormitory
students that endorsed entertainment purchases, contrary to existing regulations.
The DoDDS Atlantic Region Policy Statement Number 216-91,
“Home-Away-From-Home Residence Hall Program,” May 24, 1991, provides
that the dormitory student program will be supported to the fullest extent allowed
by directives, funds, personnel, and other resources. It states that:
               Recreation . . . opportunities are provided for the development of a
               wide range of leisure-time activities and hobbies. Emphasis is on
               physical, social, and cultural activities to provide opportunities for
               students to experience another culture; pursue games and hobbies,
               which may be continued into their adult life; and develop
               sensitivity and appreciation through experiencing a variety of
               inter-personal and social situations.

        DoD Financial Management Regulation, volume 10, chapter 11, states that
as a general rule, appropriated funds cannot be used for entertainment except
when specifically authorized by statute. DS Regulation 7100.3 states that
appropriated funds should not be used for entertainment expenses.
DS Regulation 7100.3 is dated April 17, 1990, and takes precedence over the
DoDDS Atlantic Region Policy Statement Number 216-91. Also, because the
DoDDS Atlantic Region Policy Statement Number 216-91 provides that
recreation opportunities are only allowed to the extent authorized by directives,
the entertainment purchases with appropriated funds should never have been
allowed. However, the cardholder at London Central High School Dormitory
stated that he was not aware that entertainment purchases were prohibited until
approximately June 2003.

       To address the inconsistent guidance, DoDEA issued Regulation 7100.4,
“Use of Appropriated Funds for the Home-Away-From-Home Program,”
March 25, 2004. Regulation 7100.4 provides new guidance for dormitory



                                         16
students and includes an exception to DS Regulation 7100.3. DoDEA
Regulation 7100.4 provides that appropriated funds can be used for activities that
are:

       •   educational, such as trips to museums, battlefields, or globally
           significant sites such a Stonehenge;

       •   cultural, such as walking tours of London, the Cabinet War Rooms,
           and activities like the Highland Games; or

       •   experiential, such as trekking, rock climbing, and camping.

        Although DoDEA Regulation 7100.4 provides guidance for entertainment
purchases, it does not provide complete guidance. DoDEA Regulation 7100.4
prohibits ski trips and laser tag because those activities are considered to be
primarily for entertainment. Although Shakespeare plays are allowed,
contemporary plays are allowed only in rare circumstances. However, DoDEA
Regulation 7100.4 does not address all types of entertainment purchases that we
identified. For example, DoDEA Regulation 7100.4 does not address using
appropriated funds for spectator sports, paintball, go-karts, indoor water parks,
and motion pictures. DoDEA should revise DoDEA Regulation 7100.4 to
provide a complete guide on what types of entertainment can be purchased with
appropriated funds and what types of entertainment must be purchased by the
student or parent.

        We do not believe the entertainment purchases made by the London
Central High School Dormitory were reasonably necessary for educating the
students. According to the Comptroller General opinions, expenses must be
reasonably necessary for an authorized function. Because the mission of DoDEA
is to educate students, entertainment purchases should be reasonably necessary
for educating students. However, because the activities were optional, not
available to all students, and not available at other tax-supported schools, we do
not believe the types of entertainment provided by the London Central High
School Dormitory were reasonably necessary. Although DoDEA coordinated
DoDEA Regulation 7100.4 with the DoD Associate Deputy General Counsel
(Fiscal) before issuance, additional review and approval is necessary. The DoD
Associate Deputy General Counsel (Fiscal) stated that he was not aware that the
activities at the London Central High School Dormitory were not mandatory for
all students. For example, he stated that he was not aware that less than
20 percent of boarding students went on the Windsor Castle and Houses of
Parliament trips. In addition, he was not aware that activities were not available
to non-boarding students. Therefore, DoDEA should submit the revised DoDEA
Regulation 7100.4 to the DoD Deputy General Counsel (Fiscal) for a formal legal
review and approval.

        Refreshments for Non-Boarding Students. DoDEA management
established policies that, contrary to DS Regulation 7100.3, endorsed refreshment
purchases. For example, food preparation is part of the Food Management and
Science Course for students in grades 9 through 12. Although we agree that some
of the food purchases appear to be reasonably necessary for educating students,
DS Regulation 7100.3 prohibits food purchases except for dormitory students and


                                    17
subsidized school lunches. DoDDS-Europe also purchased food and drinks for
meals and snacks, which were not reasonably necessary for educating students.
To provide consistent guidance, DoDEA should issue overarching guidance that
prohibits food purchases for snacks and meals other than subsidized school
lunches and should specify when food purchases are reasonably necessary for
educating students.

Completeness of Guidance. Both the DoDEA Program Guidance and
Administrative Instruction 8000.1 are incomplete. Appendixes of the DoDEA
Program Guidance that should have contained items such as sample purchase logs
were left blank. Neither the DoDEA Program Guidance nor the Administrative
Instruction 8000.1 address purchases of entertainment and refreshments or record
retention for cardholders no longer employed by DoDEA. Because DoDDS-
Europe recently began enforcing a 5-year maximum tour of duty in Europe,
DoDDS-Europe can expect a regular turnover of cardholders. For example, none
of the files of the three cardholders who were no longer employed by DoDDS-
Europe contained a complete historical record of transactions. Although the APC
had some of the cardholders’ files, he did not have all of the supporting
documentation necessary. Therefore, it is important that DoDEA address record
retention as rotation of cardholders will continue and retention of historical
documents is necessary. Also, neither DoDEA Program Guidance nor
Administrative Instruction 8000.1 address the retention of appointment letters.
Because appointment letters are the only historical document showing the single
purchase limit, DoDEA should require that appointment letters be retained.
Further, neither the DoDEA Program Guidance nor Administrative
Instruction 8000.1 address procedures for setting and reviewing the single and
monthly purchase limits. To provide complete guidance, DoDEA should revise
and issue Administrative Instruction 8000.1 as overarching guidance that
addresses purchases logs, including all elements that are mandatory according to
the DoD Concept of Operations; entertainment and refreshments purchases;
record retention; and purchase limits. The reissued Administrative
Instruction 8000.1 should supersede the DoDEA Program Guidance.

DODEA Program Guidance Distribution. The DoDEA Program Guidance was
not distributed to program officials at DoDDS-Europe. For example, the APC in
Europe was not aware of the DoDEA Program Guidance. In addition, the
Guidance was not posted to the DoDEA Web site. DoDEA should ensure that
purchase card guidance is distributed to all employees involved with the purchase
card program and posted to its Web site. DoDEA should also train employees on
the guidance.

Management Actions Being Taken. The Director, DoDEA stated that DoDEA
intends to rescind the previous purchase card policies and is revising
Administrative Instruction 8000.1 to address prohibited purchases, price
competition, documentation requirements, and disciplinary actions if the new
guidance is not followed. DoDEA is also developing a DoDEA Government
Purchase Card Training Guide to address purchases of food and water. In
addition, all cardholders and AOs will be retrained on the new guidance.
However, because multiple sources of guidance resulted in inconsistencies
involving purchases, DoDEA should revise and issue Administrative
Instruction 8000.1 as the overarching purchase card guidance, including items


                                   18
such as food and water purchases. Overarching guidance will help to ensure that
all guidance is consistent, complete, and distributed to purchase card officials.

Effective Internal Controls
DoDDS-Europe management did not provide the discipline, structure, and climate
necessary to implement effective internal controls. Although the DoDDS-Europe
oversight process identified the entertainment purchases, the Superintendent of
the Isles District School Office allowed the purchases to continue after receiving
legal opinions stating that entertainment purchases were improper. In addition,
DoDDS-Europe management did not take corrective action in accordance with
DoDEA guidance.

First Legal Opinion on Entertainment Purchases. In June 2003, DoDDS-
Europe management was informed that, according to a legal opinion, appropriated
funds should not be used for entertainment purchases. The APC in Europe
requested and received the legal opinion after identifying entertainment purchases
in November 2002. The June 4, 2003, legal opinion from DoDEA Assistant
General Counsel states that “case and statutory law do not support the Agency’s
use of APF [appropriated funds] for entertainment purposes for students living at
the London Central Dormitory.” The opinion states that appropriated funds can
only be used for expenses that are reasonably necessary for educating students.
After obtaining the legal opinion, the APC in Europe stated that he verbally
notified the cardholders at the London Central High School Dormitory that the
purchase card should not be used for entertainment purchases. In addition, the
APC in Europe stated that the legal opinion was coordinated with officials at the
Isles District School Office and DoDDS-Europe headquarters.

On June 26, 2003, the DoDEA European Procurement Office, which oversees the
purchase card program of DoDDS-Europe, sent a memorandum and the legal
opinion to the London Central High School and to the cardholders at the London
Central High School and the London Central High School Dormitory. The
memorandum stated that entertainment and recreational purchases were not legal
and that “recreational/entertainment purchases shall not be made by your
cardholders. If these type of purchases continue, your cardholders will have their
credit cards suspended or even terminated.”

Additional Legal Opinions. The Superintendent of the Isles District School
Office was given an additional legal opinion on entertainment purchases. On
August 15, 2003, DoDEA Assistant General Counsel sent the Superintendent an
e-mail on entertainment expenses stating “there are going to be some limits on
these types of expenses that perhaps have not been observed in the past.” The
e-mail included a message from the DoD Associate Deputy General Counsel
(Fiscal), dated August 14, 2003, stating that the DS Regulation 7100.3 is a proper
standard for determining whether appropriated funds could be used to pay for
field trips. DS Regulation 7100.3 states that appropriated funds cannot be used
for field trips, such as weekend ski trips, not normally supplied as part of the
school curriculum by comparable tax-supported public schools in the United
States. The DoD Associate Deputy General Counsel stated that “London theater
tickets are


                                    19
           clearly not permissible. However, transportation to a museum would probably be
           okay. There is some (but not unlimited) discretion in the application of this
           standard.”

           Entertainment Purchases Allowed to Continue. The Superintendent of the
           Isles District School Office allowed the purchases to continue even after receiving
           the June and August 2003 legal opinions stating that entertainment purchases
           were improper. Entertainment purchases8 for 78 London Central High School
           Dormitory students in September 2003 totaled $1,359, excluding the cost of
           transportation. Purchases included 36 tickets for a ferris wheel ride, 25 tickets for
           an indoor water park, 20 tickets for laser tag games, 15 tickets for a Houses of
           Parliament tour, and 14 tickets for Windsor Castle. After the DoDEA European
           Procurement Office suspended the London Central High School Dormitory
           cardholder’s purchase card in September 2003, the DoDEA Legal Office began to
           review all field trips before purchases were allowed.
           The cardholder at London Central High School Dormitory stated that the
           Superintendent of the Isles District School Office and the Director
           DoDDS-Europe allowed trips to be scheduled as long as they were cultural,
           historical, or recreational. After receiving two legal opinions in June and August
           2003, the Superintendent stated on September 30, 2003, that she had received no
           additional guidance from DoDEA and that she believed that entertainment
           purchases should be allowed for the remainder of the 2003-2004 school year. By
           delaying any changes until the 2004-2005 school year, the Superintendent stated
           that she believed London Central High School Dormitory could adequately
           inform parents without undue financial hardship. She stated that she had
           approved all the entertainment purchases at the beginning of the 2003-2004
           school year, totaling $1,359, except for one. She further stated that because it was
           a major change in policy, she wanted a transition period, particularly because the
           field trips had been advertised on the London Central High School Dormitory’s
           Web site and in other printed material.

           DoDDS-Europe management had from early June 2003 until school began on
           September 2, 2003, to notify parents and change its Web site to indicate that field
           trips would no longer be supplied free of charge. However, DoDDS-Europe did
           not notify parents that the parents would be responsible for paying for
           entertainment activities. In addition, as of October 12, 2004, the DoDEA
           Web site stated that dormitory students who were children of DoD employees
           would receive “regularly scheduled trips and extracurricular activities at no cost.”
           In contrast, the London Central High School Dormitory’s Web site was modified
           in March 2004 to state that parents would be responsible for paying for some of
           the following activities: theater tickets to shows such as The Lion King, Mama
           Mia, South Pacific, Fame, and Chicago; the London Eye; professional basketball
           games; and visits to theme parks. Prior to March 11, 2004, the Dormitory’s Web
           site did not indicate that parents would be responsible for costs associated with
           the listed activities.

8
    Entertainment purchases by London Central High School Dormitory in September 2003 were not included
     in the 411 transactions we reviewed. We reviewed the September 2003 transactions solely to determine
     whether the cardholders at London Central High School Dormitory were complying with the legal
     opinions issued in June and August 2003.



                                                    20
We do not believe the entertainment purchases were reasonably necessary for
educating the students. Although the House of Parliament and Windsor Castle
tours may be educational, they may not be necessary to educate the students if
only 14 or 15 of the 78 dormitory students participated and non-boarding students
could not participate. Therefore, the Office of the DoD Deputy General Counsel
(Fiscal) should formally review and approve guidance on the use of appropriated
funds for entertainment. DoDEA management should support and enforce the
entertainment guidance approved by DoD Deputy General Counsel (Fiscal). In
addition, DoDEA should modify the DoDEA Web site to make it clear that the
London Central High School Dormitory will not pay for field trips that are not
reasonably necessary for educating all students. DoDDS-Europe should provide
an inspection report semi-annually to the DoDEA APC and the PMO addressing
compliance with the DoD Purchase Card Program. The DoDEA APC and the
PMO should review the semi-annual inspection report and ensure that the actions
taken by DoDDS-Europe are adequate for compliance with the DoD Purchase
Card Program.

Disciplinary Action. DoDDS-Europe management took administrative action by
suspending the London Central High School Dormitory cardholder’s purchase
card. In addition, a DoDDS-Europe official stated that she took disciplinary
action by counseling the London Central High School Dormitory cardholder and
AO for making an entertainment purchase. However, DoDDS-Europe did not
take action in accordance with DoDEA Regulation 5751.9, “Disciplinary and
Adverse Actions,” August 27, 1999, which provides a recommended range for
penalties for disciplinary actions. The penalties should be within the
recommended ranges unless there are mitigating or aggravating factors that justify
a penalty outside the recommended range. For improper use of purchase cards,
the recommended penalty is reprimand to removal for the first offense and 14-day
suspension to removal for the second offense. For the entertainment purchases in
the 6-month period ending March 31, 2003, there were mitigating circumstances
because of the inconsistent guidance. Therefore, it is understandable that the
recommended penalties were not imposed for the first offense. However, for the
entertainment purchases in September, we did not find mitigating circumstances
that would have precluded the recommended disciplinary action for the second
offense. We believe that the first legal opinion prohibits the purchases London
Central High School made in September 2003. DoDEA officials stated that the
entertainment purchases during the 6-month period ending March 31, 2003, did
not constitute a first offense because there were mitigating circumstances.
Therefore, DoDEA officials concluded that the first offense did not occur until
September 2003, when the cardholder made the one entertainment purchase,
which the Superintendent of the Isles District School Office did not approve.
DoDEA officials stated that management took appropriate action for the first
offense in September 2003 on the basis of DoDEA Regulation 5751.9. DoDEA
officials further stated that the actions taken were within the purview of DoDEA
management.




                                    21
Improper and Questionable Purchases
           As a result of not implementing effective internal controls, DoDDS-Europe made
           $2.09 million in questionable purchases. Examples of questionable purchases
           included $113,3269 for merchandise that could not be located on property records,
           $259,605 for official travel of DoDDS-Europe employees, and $76,220 for
           purchases made without the required competition. Questionable purchases also
           included transactions lacking the following documentation:

                    •    appointment letters in effect at the time of the transaction,

                    •    signed purchase requests,

                    •    transactions recorded on cardholder’s purchase log,

                    •    invoices or receipts,

                    •    signed monthly statements, and

                    •    cost reconciliations.

           In addition, DoDDS-Europe used up to $22,574 in operation and maintenance
           funds for improper entertainment and refreshment purchases. Further,
           DoDDS-Europe has no assurance that questionable or improper purchases will be
           prevented or promptly identified, that purchased goods and services will be
           received and protected from theft and unauthorized use, that reasonable prices
           will be paid for goods and services, or that spending will be limited to available
           funding.


Conclusion
           The Government purchase card is a valuable tool for streamlining the
           Government’s procurement process. According to the General Services
           Administration, Government-wide annual administrative savings are estimated to
           be $1.2 billion from using credit cards, including the purchase card. However, for
           DoDEA to achieve administrative savings, DoDEA management needs to
           establish effective internal controls for the purchase card program. For the
           purchase card to be a cost-effective method of procurement, DoDEA management
           needs to:

                    •    issue overarching guidance that provides consistent and complete rules
                         on the appropriate use of purchase cards, including when
                         entertainment and refreshment purchases are allowed;


9
    Two months after our field visit, a DoDDS-Europe official stated that although most of the records of
     accountable property had been corrected, DoDDS-Europe was unable to properly account for property
     valued at $13,755.



                                                      22
           •   distribute the guidance to all employees involved in the purchase card
               program;

           •   support and enforce the guidance;

           •   devote adequate human capital and travel resources for purchase card
               oversight to ensure that guidance is followed, including the
               requirements for account and transaction authorization, reasonable
               spending limits, competitive acquisitions, reconciled and approved
               monthly statements, and proper supporting documentation; and

           •   take appropriate disciplinary action when guidance is not followed.

    In addition, DoDDS-Europe management should provide the discipline, structure,
    and climate necessary to implement effective internal controls. Only when
    DoDEA management establishes effective internal controls will DoDEA have
    reasonable assurance that the purchase card holders are complying with the
    applicable laws and regulations and that resources are being used effectively and
    efficiently.


Management Comments on the Finding and Audit Response
    DoDEA Comments on the DoD Purchase Card Program. The Director,
    DoDEA stated that the definitions of improper and abusive transactions should be
    made on the basis of GAO Report No. GAO-04-717T, “Purchase Cards:
    Increased Management Oversight and Control Could Save Hundreds of Millions
    of Dollars,” April 28, 2004. The Director further stated that the definition of
    questionable transactions should be made on the basis of GAO Report
    No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and Abuse but
    Is Taking Action to Resolve Control Weaknesses,” September 27, 2002.

    Audit Response. Because we found no abusive transactions, we deleted all
    references to abusive transactions. Although GAO definitions have varied
    slightly between reports, we selected the definition of improper transactions from
    GAO Report No. 03-678G, “Exposure Draft, Audit Guide: Auditing and
    Investigating the Internal of Government Purchase Card Programs,” May 2003,
    which defines improper purchases as “transactions that are intended for
    government use, but are not permitted by law, regulation, or organizational
    policy.”

    Our definition of questionable transactions was taken from GAO Report
    No. 02-676T, “Government Purchase Cards: Internal Control Weaknesses
    Expose Agencies to Fraud and Abuse,” May 1, 2002, which defines “abusive or
    questionable purchases as that, while authorized, were for items purchased at an
    excessive cost, for a questionable government need, or both. Questionable
    purchases also include those for which there was insufficient documentation to
    determine whether they were valid.” Because we did not find any transactions
    that were made at excessive cost or for questionable Government need, we



                                        23
            defined questionable transactions as transactions with insufficient documentation
            to determine whether they were valid.

            DoDEA Comments on Field Trips at Other Tax-Supported Public Schools.
            The Director, DoDEA stated that our report is misleading when it states that not
            all tax-supported boarding schools in the United States supply free weekend trips
            because the Senate Page dormitory is not publicly supported. In addition, he
            stated that Senate Pages are paid an annual salary. Further, the Senate Page
            program is a voluntary work/study program. In contrast, the London Central
            High School Dormitory houses DoD dependents whose parents are military
            members or civilians stationed in an area without an English-speaking school.

            Audit Response. Although the Director believes that the Senate Page program
            should not be used as an example because it is not tax-supported, the Senate Page
            residence hall is supported, in part, by appropriated funds according to the
            GAO.10 Accordingly, the Senate Page program is tax-supported. According to
            DS Regulation 7100.3, the standard for determining whether field trips are
            allowed is whether they are “normally supplied as part of the school curriculum
            by comparable tax supported schools in the United States.” Therefore, we
            examined entertainment at the tax-supported boarding schools in the United
            States, and included the Senate Page program.


Recommendations, Management Comments, and Audit
  Response
            Revised and Added Recommendations. As a result of management comments,
            we revised draft Recommendations 1.a. and 1.b.(1) to recommend that DoDEA
            Regulation 7100.4 be revised rather than revoked and to allow the overarching
            guidance to summarize rather than replace DoDEA Regulation 7100.4. Minor
            revisions were made to other recommendations as necessary. We also added
            Recommendations 1.f. and 3. to recommend that DoDEA and the PMO review
            the semi-annual inspection report filed under Recommendation 2.d. and to ensure
            that the actions taken by DoDDS-Europe are adequate for compliance with the
            DoD Purchase Card Program.

            1. We recommend that DoD Education Activity:

                   a. Revise DoD Education Activity Regulation 7100.4, “Use of
            Appropriated Funds for the Home-Away-From-Home Program,” March 25,
            2004, to specifically address whether each type of entertainment identified by
            this audit, including spectator sports, paintball, go-karts, indoor water parks,
            and motion pictures, can be purchased with appropriated funds and obtain a
            formal legal review and approval from the DoD Deputy General Counsel
            (Fiscal) prior to reissuance.
10
     GAO Report No. GAO-04-388, “Daniel Webster Senate Page Residence Revolving Fund’s Fiscal Year
     2002 Financial Statements,” March 31, 2004, states that in FY 2002, costs paid directly from
     appropriated funds included salaries and benefits, building maintenance, furniture and equipment, and
     telephones.



                                                      24
       b. Revoke DoD Education Activity guidance “Government Purchase
Card (US Bank I.M.P.A.C. Government Services) Program” and issue the
revised DoD Education Activity Administrative Instruction 8000.1, “Use of
The Governmentwide Commercial Purchase Card,” April 3, 2001, as the
overarching guidance for the Government Purchase Card Program to
include the minimum requirements of section 2784, title 10, United States
Code, “Management of Credit Cards,” DoD purchase card guidance, and:

               (1) Summarize all DoD Education Activity guidance that
applies to the use of Government purchase cards and is not made part of the
overarching guidance, such as DS Regulation 7100.3, “DoD Dependents
Schools Use of Appropriated Funds,” April 17, 1990, and DoD Education
Activity Regulation 7100.4, “Use of Appropriated Funds for the
Home-Away-From-Home Program.”

DoDEA Comments. The Director, DoDEA nonconcurred with the draft
recommendations 1.a. and 1.b.(1) to issue overarching program guidance and
revoke existing entertainment guidance. He stated that DoDEA
Regulation 7100.4, which is the existing entertainment guidance, incorporates
comments from the Office of the DoD Deputy General Counsel (Fiscal) and was
promulgated without legal exception from that office. In addition, he stated that
DoDEA Regulation 7100.4 sets reasonable guidelines to ensure that a nexus
exists between student activities and the congressionally mandated mission of
DoDEA. Further, the Director stated that it is necessary to have a separate
entertainment policy. Therefore, he does not agree that DoDEA
Regulation 7100.4 should be revoked or made part of the overarching guidance.

Audit Response. As a result of comments from DoDEA, we revised the draft
Recommendation 1.a., as necessary, and substituted “revise” for “revoke.” We
also revised Recommendation 1.b.(1) to allow the overarching guidance to
summarize DoDEA Regulation 7100.4. Because DoDEA Regulation 7100.4 only
applies to the London Central High School Dormitory, we also agree that it
should be a separate regulation.

However, the DoDEA Regulation 7100.4 needs revision because it does not
address all types of entertainment purchases identified during the audit. In
addition, although the Office of the DoD Deputy General Counsel (Fiscal)
commented on DoDEA Regulation 7100.4, an additional review and formal
approval is necessary because the DoD Associate Deputy General Counsel
(Fiscal) stated that he was not aware that the activities were not mandatory for all
students and that activities were not available to non-boarding students. In
addition, the DoD Associate Deputy General Counsel (Fiscal) stated that he did
not complete a formal legal review. Therefore, we request that DoDEA provide
comments in response to the final report addressing revised
Recommendations 1.a. and 1.b.(1).

              (2) Prohibit food purchases at non-boarding schools with the
exception of subsidized school lunches and food that is reasonably necessary
for the education of students and is comparable to food provided at
tax-supported schools in the United States.



                                     25
             (3) Prohibit water purchases that do not meet the
requirements of DoD Financial Management Regulation, volume 10,
chapter 12.

              (4) Establish procedures to ensure that purchases are
competitively acquired.

              (5) Establish procedures to ensure that all accountable
property is recorded in the property records.

DoDEA Comments. The Director, DoDEA concurred. DoDEA has developed a
draft of Administrative Instruction 8000.1 to establish procedures for competitive
purchases and to ensure that accountable property is recorded on the property
records. The draft Administration Instruction 8000.1 also includes guidance on
prohibited purchases and disciplinary actions. Additional guidance concerning
purchases of food and water will be addressed in the new DoDEA Government
Purchase Card Training Guide. In addition, DS Regulation 7100.3 will be
updated to provide for specific exceptions for food for Sure Start, special
education students, and curriculum related purposes. Actions on
Recommendation 1.b.(2) and 1.b.(3) will be completed by December 31, 2004,
and actions on Recommendation 1.b.(4) and 1.b.(5) will be completed by
September 30, 2004. On October 8, 2004, a DoDEA official stated that actions
on Recommendation 1.b.(4) and 1.b.(5) were still in process.

Audit Response. Although DoDEA concurred, the Director stated that DoDEA
will address some procedures in the revised Administrative Instruction 8000.1
and some procedures in the DoDEA Government Purchase Card Training Guide.
That does not comply with the intent of the recommendations 1.b.(4) and 1.b.(5).
We identified problems with the consistency, completeness, and distribution of
guidance that can be minimized or prevented by the issuance of overarching
guidance for the Government Purchase Card Program. However, Administrative
Instruction 8000.1 would serve the purpose of overarching guidance if it
addresses food and water purchases and includes summaries of and references to
DS Instruction 7100.3 and DoDEA Regulation 7100.4. Including overarching
guidance in Administration Instruction 8000.1 will provide cardholders with the
information necessary to determine the appropriate use of the Government
purchase card. Therefore, we ask that DoDEA reconsider its position on
including guidance on food and water purchases in the DoDEA Administrative
Instruction 8000.1. In addition, we ask DoDEA to provide completion dates of
the actions on Recommendation 1.b.(4) and 1.b.(5).

      c. Train all employees involved in the purchase card program on the
new DoD Education Activity overarching guidance.

       d. Post the revised overarching guidance on the DoD Education
Activity Web site and distribute to all employees involved in the purchase
card program.

       e. Revise the DoD Education Activity Web site to inform parents
that the cost for entertainment that does not meet the requirement of
Recommendation 1.b.(1) shall be born by the parent.


                                    26
DoDEA Comments. The Director, DoDEA concurred in part. DoDEA will train
all cardholders and billing officials on new DoDEA policies and guidance and
post all revised guidance to the DoDEA Web site. However, the guidance will
not be the overarching guidance recommended in Recommendation 1.b. Actions
taken in response to Recommendation 1.c., 1.d., and 1.e. will be completed by
June 30, 2005, December 30, 2004, and September 30, 2004, respectively. On
October 8, 2004, a DoDEA official stated that action on Recommendation 1.e.
was still in process.

Audit Response. Although DoDEA only partially concurred, we consider its
comments to be responsive for Recommendation 1.c. and 1.d. The DoDEA
comments are partially responsive for Recommendation 1.e. DoDEA stated that
DoDEA Regulation 7100.4 will be posted to the Web site by September 30, 2004.
However, the DoDEA comments did not address revising information already
posted to the Web site. For example, as of October 12, 2004, the DoDEA Web
site stated that dormitory students who were children of DoD employees would
receive “regularly scheduled trips and extracurricular activities at no cost.” In
contrast, the London Central School Dormitory Web site was modified in March
2004 to state that parents would be responsible for paying for some activities.
Therefore, we request that DoDEA provide additional comments in response to
Recommendation 1.e.

      f. Review the semi-annual inspection report filed under
Recommendation 2.d. to ensure that the actions taken by DoD Dependents
Schools-Europe comply with the DoD Purchase Card Program.

Management Comments. We request that DoDEA provide comments on
Recommendation 1.f.

2. We recommend that DoD Dependents Schools-Europe:

       a. Devote adequate human capital resources to program oversight by
employing two full-time agency program coordinators in Europe and devote
adequate travel funds for conducting annual on-site inspections of purchase
card holder and approving official records in accordance with Revision 1,
“DoD Government Purchase Card Concept of Operations,” March 31, 2003,
in order to:

               (1) Establish proper account authorization in appointment
letters and single and monthly spending limits that are reasonable when
compared with actual purchases and budgets, and

              (2) Detect, correct, and prevent transactions not properly
authorized, competitively acquired, properly reconciled and approved on
monthly statements, or properly supported with documentation.

DoDEA Comments. The Director, DoDEA responded on behalf of DoDDS-
Europe and concurred. The Director stated that recruitment efforts are underway
for hiring a second APC in Europe. After the Director responded, a DoDDS-
Europe official stated that the second APC was selected on September 2, 2004.



                                   27
For FY 2005, the DoDEA European Procurement Office received approval for the
funding necessary to perform annual inspections of purchase card files. The
inspections will include a review of the reconciliation and approval of monthly
statements and supporting documentation. By December 31, 2004, DoDDS-
Europe will issue new appointment letters with specific limits and establish
reasonable single and monthly purchase limits on the basis of historical spending.

     b. Direct the London Central High School Dormitory staff to
immediately:

           (1) Cease making purchases that do not meet the requirements
of Recommendations 1.a.

              (2) Inform parents that the cost for entertainment that does
not meet the requirement of Recommendation 1.b.(1) shall be born by the
parent and revise information on the London High School Dormitory Web
site accordingly.

DoDEA Comments. The Director, DoDEA responded on behalf of
DoDDS-Europe and concurred, in part. The Director noted that the guidance
issued in response to Recommendations 1.b. will not be overarching.

Audit Response. With regard to our revision of Recommendations 1.a. and
1.b.(1), we request that DoDEA provide comments to Recommendation 2.b.

        c. Initiate a review and take appropriate administrative actions
against the cardholder, the approving official, and the Superintendent of the
Isles District School Office for the entertainment purchases that were made
after receiving the memorandum from the DoD Education Activity European
Procurement Office, dated June 26, 2003, which states that entertainment
purchases are not legal.

DoDEA Comments. The Director, DoDEA responded on behalf of DoDDS-
Europe and nonconcurred with Recommendation 2.c., stating that appropriate
administrative actions have been taken.
Audit Response. Although the Director, DoDEA nonconcurred, we have
considered his response and accept the actions taken to be responsive.
DoDDS-Europe management suspended the cardholder’s purchase card and
counseled the cardholder and the AO for making one unauthorized entertainment
purchase.

       d. Provide an inspection report semi-annually to the DoD Education
Activity agency program coordinator and the DoD Purchase Card Joint
Program Management Office addressing compliance with the DoD Purchase
Card Program.

DoDEA Comments. The Director, DoDEA responded on behalf of DoDDS-
Europe and concurred with Recommendation 2.d., stating that the revised
Administrative Instruction 8000.1 will require APCs in satellite offices to submit
a semi-annual report addressing compliance with the DoD Purchase Card


                                    28
Program to DoDEA and the PMO. DoDEA will complete actions by
December 30, 2004.

3. We recommend that the DoD Purchase Card Joint Program Management
Office review the semi-annual inspection report filed under
Recommendation 2.d. and ensure that the actions taken by DoD Dependents
Schools-Europe are adequate for compliance with the DoD Purchase Card
Program.

Management Comments. We request that DoD Purchase Card Joint Program
Management Office provide comments on Recommendation 3.




                               29
Appendix A. Scope and Methodology
   The scope of this audit included a review of DoD purchase card transactions
   originating outside the United States to determine whether they were appropriate.
   Specifically, we used data mining techniques to identify high-risk transactions
   using indicators to identify transactions that appeared to be prohibited by
   guidance or that met a fraud profile or both. The indicators were developed by a
   group of investigators, auditors, and other experts at a Purchase Card Subject
   Matter Expert Conference in February 2002. We focused on selected transactions
   made by the DoDDS-Europe locations in Germany and Great Britain. Reduced
   travel funding limited our on-site audit verification.

   This audit was performed to meet the requirements of Public Law 107-314,
   “National Defense Authorization Act for Fiscal Year 2003,” December 2, 2002.
   The law directs the Inspector General of the Department of Defense to perform
   periodic purchase card audits. We also reviewed the United States Code, the
   FAR, DoD Financial Management Regulations, and other DoD and DoDEA
   guidance containing information on policies and procedures in the administration
   and oversight of the DoD Purchase Card Program. Those documents were dated
   from April 1990 through March 2004.

   We initially selected 705 high-risk transactions made by DoDDS-Europe
   cardholders from October 1, 2002, through March 31, 2003, valued at
   $3.3 million. Because of time constraints, we limited our review of the
   705 transactions to 411 transactions, which were made by 19 DoDDS-Europe
   cardholders with 22 accounts. Three cardholders had two accounts. We reviewed
   cardholder appointment letters, monthly statements, purchase logs, purchase
   requests, invoices, receipts of delivery, price quotes (for transactions over
   $2,500), property records, cost reconciliations, contracts, and blanket purchase
   agreements. In addition, we interviewed selected cardholders, AOs, U.S. Bank
   officials, and other senior DoD and DoDEA program management personnel. We
   analyzed supporting documentation for compliance with applicable laws and DoD
   and DoDEA policies and procedures for the 411 transactions. We performed
   audit work at the DoD Purchase Card Joint Program Management Office, DoDEA
   headquarters, and 11 DoDDS-Europe activities in Germany and Great Britain.

   We selected 22 accounts and 411 transactions for our review. In addition, to
   determine whether the London Central High School and the London Central High
   School Dormitory were complying with the legal opinions issued in June and
   August 2003, we reviewed the transactions made after the legal opinions were
   issued. In order to determine whether the accounts reviewed had a reasonable
   monthly purchase limit in comparison to the annual school budgets, we reviewed
   the aggregate monthly purchase limit for all the accounts at four schools. By
   including all the schools’ accounts, regardless of whether they were among the 22
   selected for review, we were able to compare the schools’ total purchasing power
   to the schools’ annual budgets. Further, to determine whether the accounts
   reviewed had a reasonable single purchase limit, we analyzed all the transactions
   of the 22 accounts during the 6-month period ending March 31, 2003.




                                      30
    We performed this audit from January 2003 through June 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data on
    purchase card transactions from U.S. Bank’s purchase card management systems,
    which was provided to us by the Defense Manpower Data Center. We used the
    computer processed data and data mining techniques to identify high-risk
    transactions that appeared to be prohibited by guidance or that met a fraud profile
    developed by a group of investigators, auditors, and other experts at a Purchase
    Card Subject Matter Expert Conference in February 2002. However, with the
    exception of single purchase limits, we believe that the reliability of the data was
    sufficient for the audit because corroborating evidence was obtained from source
    documentation. Data on the single purchase limit could not always be verified
    because historical data on single purchase limits was not always available.

    GAO High-Risk Area. The GAO has identified several high-risk areas in DoD.
    This report provides coverage on improving processes and controls to reduce
    contract risks.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over the DoDEA purchase card program. We
    discussed management controls and the management control program with
    DoDEA headquarters personnel. We also reviewed the adequacy of
    management’s self-evaluation of those controls.
    Adequacy of Management Controls. We identified material management
    control weaknesses for DoDEA as defined by DoD Instruction 5010.40. DoDEA
    did not implement effective internal controls over the use of purchase cards in
    order to:

           •   ensure that accounts were properly authorized,

           •   ensure that single and monthly spending limits were reasonable,

           •   ensure that transactions were properly authorized,

           •   prevent improper and questionable purchases from being made,

           •   ensure that items were purchased from proper sources,




                                         31
       •   ensure that transactions were reconciled and approved on the monthly
           statement, or

       •   ensure that items purchased were properly received and supported
           with sufficient documentation.

All recommendations, if implemented, will improve controls over the purchase
card program and could result in potential monetary benefits. Additionally,
DoDEA did not implement controls to ensure that Government assets were
properly recorded and accounted for in the property records. Recommendation
1.b.(5), if implemented, will improve property accountability controls. A copy of
the report will be provided to the senior official responsible for management
controls in DoDEA.

Adequacy of Management’s Self-Evaluation. DoDEA officials identified the
Purchase Card Program as an assessable unit; however, they did not identify or
report the material management control weaknesses identified by the audit.




                                   32
Appendix B. Prior Coverage
      During the last 5 years, the GAO and the Inspector General of the Department of
      Defense (IG DoD) have issued multiple reports discussing the DoD purchase card
      program. Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted IG DoD reports, including the following recent
      reports with related coverage on credit cards, can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-04-717T, “Purchase Cards: Increased Management
      Oversight and Control Could Save Hundreds of Millions of Dollars,” April 28,
      2004

      GAO Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
      Significant Savings on Purchase Card Buys,” March 12, 2004

      GAO Report No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD
      Program Management, but Actions Needed to Address Misuse,” December 2,
      2003.

      GAO Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the
      Air Force Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002.

      GAO Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud
      and Abuse but Is Taking Action to Resolve Control Weaknesses,” September 27,
      2002

      GAO Report No. GAO-02-844T, “Purchase Cards: Control Weaknesses Leave
      Army Vulnerable to Fraud, Waste, and Abuse,” July 17, 2002

      GAO Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave
      Army Vulnerable to Fraud, Waste, and Abuse,” June 27, 2002

      GAO Report No. GAO-02-676T, “Government Purchase Cards: Control
      Weaknesses Expose Agencies to Fraud and Abuse,” May 1, 2002

      GAO Report No. GAO-02-32, “Purchase Cards: Control Weaknesses Leave
      Two Navy Units Vulnerable to Fraud and Abuse,” November 1, 2001

IG DoD
      IG DoD Report No. D-2004-104, “Purchase Card Use and Contracting Actions at
      the U.S. Army Corps of Engineers, Louisville District,” July 27, 2004

      IG DoD Report No. D-2004-096, “Controls Over Purchase Cards at Naval
      Medical Center San Diego,” June 29, 2004


                                        33
IG DoD Report No. D-2004-076T, “Statement of David K. Steensma, Assistant
Inspector General, Contract Management, COL William J. Kelley, Program
Manager, Data Mining Division, Office of the Inspector General of the
Department of Defense to the Senate Committee Governmental Affairs on How to
Save the Taxpayers Money Through Prudent Use of the Purchase Card,” April 28,
2004

IG DoD Report No. D-2004-016, “Purchase Card Use at the Space and Naval
Warfare Systems Command, Information Technology Center, New Orleans,
Louisiana,” November 14, 2003

IG DoD Report No D-2004-002, “Selected Purchase Card Transactions at
Washington Headquarters Service and Civilian Personnel Management Service,”
October 16, 2003

IG DoD Report No. D-2003-109, “Summary Report on the Joint Review of
Selected DoD Purchase Card Transactions,” June 27, 2003

IG Report No. D-2002-075, “Controls Over the DoD Purchase Card Program,”
March 29, 2002

IG DoD Report No. D-2002-029, “Summary of DoD Purchase Card Program
Audit Coverage,” December 27, 2001




                                 34
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy
     DoD Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy General Counsel for Fiscal

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. European Command

Other Defense Organizations
Director, DoD Education Activity
   Director, DoD Dependents Schools-Europe

Non-Defense Federal Organization
Office of Management and Budget




                                          35
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Finance
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        36
DoD Education Activity Comments




  .  MEMORANDUM
                                    DEPARTMENT OF DEFENSE
                                      EDUCATION ACTIVllY
                                      4040 NORTH FAIRFAX DAM!
                                    MUNGTON,



                        FOR ASSISTANT INSPECTOR
                                               VIRGINIA 22203-1836



                                                  GENERAL FOR READINESS
                              AND LOGISTICS SUPPORT, INSPECTOR GENERAL,
                               DEPARTMENT   OF DEFENSE
                                                                                  AU820 am




     SUBJECT: Draft Department ofDefl:l1Se lnspeetor General Report, entitled "Overseas
              Purchase Card Transactions by DoD Dependents Schools-Europe" (Project
              No.D2003LH-OOS2).

             Attached is the Department of Defense Education Activity's (DoDEA's) response
     to the subject draft audit report. We concur in part with the (mdings and
     recommendations contained in the report and will take timely action to ensure appropriate
     internal controls and cortective measures.

             With respect to the findings and recommendations concerning the London Central
     High School (LCHS) dormitories, our comments emphasize the unique 2417 in loco
     parentis respon5ibilitiesof the LCHS dormitory staff with respect to their residential
     students. We believe that promulgation in March 2004 of DoDEA Regulation 7100.4,
     "Use of Appropriated Funds for the Home-Away-from-Home Program" provides
     appropriateguidance to meet DoDEA's in loco parentis responsibilities consistent with
     pertinent laws and regulations.

           My point of contact on this matter is D Sibley, Chief, Compliance and Assistance,
     who may be contacted by email: d.sibley@ hq.dodea.edu or by telephone at (703) 588-
     3244.




                                              ~~~/
                                               Director
     Attachment:
     Asstated




                                                 37
Final Report
 Reference




                                                                  Back2round


Revised        1. Pase 2. nDoD Purcba$e Card Prol!l11m"oarawaph: GAO's definitions of "improper"
               and "abusive" transactions should be cited to GAQ.4-711T and the definition of
               "questionable" transactions should be oited to GAO-2.1 041. With respect to the
               def'mition   of "questionable     transactions,"     tbe definition   stated    is not accurate    - GAO's
               exact definition shol.lld be stated, "Q1.Iestionable transactions are those that appear to be
               improper or abusive but for which there is insufficient documentation to concll.lde either.
               We consider     transactions    to be questionable      when they do not fit within the           ...
               guidelines on purchases that are acceptable for the purchase card program, and when
               there is not a reasonable or documented justification to acquire the item purchased."

                                                                  Obiectives

Revised        2. Pa2e 3. first pautgraph: The statement that transactions identified were those "that
 page 3 and    appeared to be abusive, questionable, or improper" is inconsistent with Appendix A,
 Appendix      "Scope and Methodology," which states that "70S questionable trII11Sactions"were
 A (page 30)   initially selected and then the review was limited to a subset of 411 of those 705
               transactions. Therefore, the sentence in the "Objectives" section should be changed to
               reflect that transactions that appeared to be "questionable" were examined.

                                  Controls     Over the DoDDS Eurooe Purchase                 Card Proe:raID

               3. Pa~e 4. fltSt paragraph: Concur that documentation was lacking in cardholder files,
               particularly on cardholders that had left DoDDS-Europe (DoDDS-E). Annual
               surveillance of cardholders will concentrate on documentation review, and the new table
               of penalties in the DoDEA GPC acql.lisition instruction will be strictly adhered to. The
Added          DoDDS-Europe Procurement Office (DEPO) has received approval for funding to
 (page 16)     perform this surveillance beginning in fiscal year 2005.

               4. Pali!e4. first paranraoh: Concur that lack of documentation existed on competition for
               some purchases over $2,500. This office is unable to verify actual purchase costs,
               because IG data was not inoluded with the draft report.

Revised        S. Palle 4. last oaralm\oh: Finding that $1 13,326 of merchandise cannot be located on
               property records should be made consistent with statement on page 14 that the majority
               of the questioned property has been accounted for.

Revised        6. Palle 4. last oaranraoh: In last sentence that states, "In addition, DoDDS-Europe has
Appendix A     no assurance that questionable or improper purehases will be prevented or promptly
 (page 30)     identified. . . .", delete "improper" since only "questionable" transactions werC examined
               in accordance with Appendix A.


                                                                                                                  Attachment   I




                                                                       38
                                                                                                 Final Report
                                                                                                  Reference




                     Implementinll   Internal Controls   Before Purchase

7. P~~e 5. "Accounl Authorization" paragraph: Concur with finding that appointment
letters were not documented as clearly as they should have been. Appointment letters
should be issued with specific limits, and are being reviewed and re-written within
DoDDS-Europe. This process should be completed by 31 December 2004 for all
DoDDS-Europe cardholders.

8. Page 6. "Purchase Limits" narallraoo: Concur that purchase limits need to be set at
reasonable amounts. Review of all eardholders to determine if limits are reasonable is
now underway. This review will address peak: purchases workload, e.g. beginning of
school year, end of fiscal year. All Europe cardholders and approving officials will
                                                                                                 Added
establish new single purchase and monthly limits based on historical spending beginning           (page 28)
I October 2004. This process will be completed by 31 December 2004.

                     Implementing Internal Controls During Purchase

9. Page 9. "Entertainment and Refreshment Purchases" \>arallra\>h: While entertainment
                                                                                                 Page 10
and some refreshment purchases were not authorized by DS Regulation 7100.3, the
regulation will be re-written to address bona fide authorized exceptions such as the
Home-Away-from-Home program and Sure Start program. A determination of what is
purely "entertainment" must be undertaken on a case-by-case basis. The DoD Financial
Management Regulation, volume 10, chapter II, paragraph 110207, "Official
Entertainment," cited states the general rule "that funds appropriated for government
departments or agencies may not be used for entertainment, except when specifically
authorized by statute." That chapter cites to 43 Compo Gen. 305 (1963) in which the
Comptroller General found the use of appropriated funds by the Velerans Administration
to provide a dinner, luncheon, or refreshments in conjunction with an annual recognition
ceremony to constitute "entertainment," whereas the furnishing of meals without charge
to volunteers whose assignments extended over meal periods did not constitute
entertainment because such meals were "incident to the actual rendering of services by
the volunteers during their scheduled assignments." This example illustrates the fact that
each situation musl be reviewed to determine if the general rule applies. It is doubtful
that activities for dormitory students were contemplated in drafting the sentence in the
FMR concerning "Official Entertainment," which applies as a general rule in a typic.1
federal office environment.

10. Pa~ 10. "Field Trips at Other Tax-SuDtlorted Public Schools" paragraph:       This
paragraph states that "[n]ot all tax-supported boarding public schools in the United States
                                                                                                 Page II
supply free weekend field trips," This statement is misleading since one of the two
dorms discussed is not publicly-supported.     The Senate Page Program discussed is one in
which High School students compete to work for the U.S. Senate as II page. According to
information on this program from one Senator's website, "[pJages are paid on the basis of


                                              2                               AtUICbrnent    I




                                              39
Final Report
 Reference




                   an annual $/lIar)' of$14,500. . . Pages are required to Jive in the Daniel Webster Senate
                   Page Residence during the school year. The cost ofliving in the residence hall is $450
                   per month and includes breakfast and dinner Monday through Friday. Payment is made
                   tbrougb payroll deduction. An initial security deposit of $250 is required before checking
                   in and is refundable when it hIlSbeen determined that no damage has occurred to the
                   residence." Therefore, the Senate Page Program is a voluntary, competitive work/srudy
                   program. The revolving fund cited to was established for receipt of deposits "of all rental
                   payments and other moneys collected or received by the Sergeant at Arms with regard to
                   the Daniel Webster Senate Page Residence. . . In addition, such moneys may be used by
                   the Sergeant at Arms to purchase food and food related items and fund activities for the
                   pages." 2 U.S.C. § 88b- 7. This is entirely different from tbe London Central High
                   School (LCHS) dormitories established to house DoD dependents whose parent or
                   paren1s are military members or civilians supporting the DoD mission located in an area
                   where there is no Bnglish-speaking school available. The only federal, tax-supported,
                   boarding schools of which DoDBA is aware are those operated by the Department oftbe
                   Interior, Bureau of Indian Affairs (BIA), Office of Indian Education Programs, for Native
                   American children. The BIA U$esappropriated funds to Slipport a variety of activities
                   exclusively for re$idential students enrolled in these BIA boarding schools.

Page 12             11. Page 11. "Field Trips Not Available to All Students" para2raoh. The fact that certain
                   field trips at the LCHS dormitories are available only to dormitory students is fully
                   consistent with the purpose oCthe Homc>-Away-From-Home Program ("HARP"). The
                   HARP authorizes activities like these exclusively for LCHS dormitory students because
                   their DoD sponsor parents are unable to provide them with the normal activities and
                   outings of family life while they are stationed elsewhere serving our country. The LCHS
                   dormitory staff and administrators have a unique illfoct) parentis relationship with the
               )   dormitory students that they do not have with the day students who are able to go home
                   to their families at the end of each school day. Moreover, the poHcies of the HAHP are
                   similar to those practices and policies of BIA dormitory schools according to the BIA
                   Office of Indian Education Programs. All BIA students and all LCHS students,
                   residential and non-residential, are given the opportunity to participate in the kinds of
                   after-school activities found in most public schools, e.g., student clubs and athletics.
                   However, both LCHS and BIA dormitories offer additional activities exclusively for their
                   residential students for the simple reason that these students' families are not there to
                   provide normal activities like visiting a museum or engaging in outdoor physical fitness
                   activities. Tbe BIA Office of Indian EducstionPrograms confirmed that BlA offers
                   activities for dormitory students that differ tram those of non-dormitory students, and
                   include recreational and club activities that differ from those traditionally offered by U.S.
                   public schools. Neither LCHS nor BIA dormitory requires residential students to
                   participate in all offered activities where a student prefers to remain in. the dormitory.

                   A principal difference between LCHS and BlA residential life is the fact that many BlA
                   boarding students can, snd do, go home on the weekends, whereas LCHS dormitory


                                                                 3                                 Attachment   I




                                                                 40
                                                                                                Final Report
                                                                                                 Reference




students cannot. Information we obtained from BIA provided that of the 500 students
attending BIA's boarding school at Ft. Wingate, for example, only about 50 students stay
in the dorm most weekends. In fact, staff ratios are required to be reduced on the
weekends at .BlA boarding schools "to adjust for those students who go borne." 25
C.F.R. § 36.74(b). "Leisure-time activitiessbaU be provided to dormitory students.
These activities may include recreational activities, clubs, artsIcrafts, and reading of
newspapers and periodicals. Television viewing shall not be considered as structured
leisure time unless a scheduled program provides educational benefit." 25 C.P.R. §
36.74(1). Since students at the London HS dormitories do not have the luxury of "going
home" for the weekend, it is even more critical that DoDEA establish a structured
program fortbem. If this program were offered to day students in addition to the dorm
students, then DoDEA would have to use its appropriated funds to add staff to monitor
                         -
those additional students an unnecessary expense ofO&Mfunds. In addition, the day
students would have to be charged for all activities since none would be a necessary
expense for those students.

12. Pal!C 12: Concur that official travel expenses purchased on an individual basis             Page 13
should be made with the government travel card when the employee is being reimbursed
under official travel orders.

                         Implementing Controls After Purchase

 13. Palle 12. "Reconciliation and Aooroval of Monthlv Statements" paralP'aph: Concur           Page 13
that cardholders and approving officials should follow applicable regulations for
reconciliation and approval of statements. This is an issue DoDDS Europe takes
seriously, and SUtVeillance will strictly adhere to requirements.

                         Overseeing the Purchase Card Pro~m

14. Palles 14, "Human Capital Resources" -paragraph: The second DoDDS-Europe          APC
                                                                                                Revised
position was approved by DoDDS-Europe      in July, 2003. A second (alternate) APC was
                                                                                                Page 15
actually hired and in place by August 2003. However, the primary APC left his position
with DoDDS-Europe      in December 2003 due to enforcement of the five-year limitation
for civilian employees overseas. Recruitment actions to backfill the second APC position
are underway and a selection is expected by the end of August.

15.Pa~ 15. "Entertainment for Dormitorv Students" J)aTaIlr8Dh:DoDEA Regulation
7100.4, "Use of Appropriated Funds for the Home-A way-From-Home Program," March
25, 2004, incorporates comments from the Office of the Deputy General Counsel                   Page 16
(Fiscal), DoD, and as such, was promulgated without legal objection from that office.
The Windsor Castle and Houses of Parliament trips referenced occurred prior to the
promulgation ofthe new regulation, and therefore, were not analyzed under it.
Therefore, the ODGC (Fiscal) would not have been aware of the circumstances of those


                                            4                                 Attachment    1




                                            41
Final Report
 Reference




               trips in reviewing the HAHP regulation. The fact that less than aU the boarding students
               participated in those activities is not relevant. The relevant point is that the new program
               sets forth reasonable guidelines to ensure there will be a nexus between after-school or
               weekend activities and DoDEA's congressionally-mandated mission. These activities are
               a necea5IU'Yexpense of fUlfilling that mission for boarding students. As previously stated,
               such activities are not available to non-boarding students because they are not a necessary
               expense for those students.

Page 19        16. Palle 18. "Additional Lepl Opinion" oaragrnph: The remainder of the quote from
               the message referenced from the Associate Deputy General Counsel (Fiscal), DoD to the
               Assistant Gerteral Counsel, DoDEA on August 14,2003 provides:

                       ""There.is some (but not unlimited) discretion in the application of this standard.
               We would be wary of too precise an application of the GAO's 'entertainment' test since a
               trip to a museum might be very entertaining, in addition to being very educational. The
               GAO's decisions proscribing entertainment expenses usually deal withFedera1
               employees as beneficiaries, not children for whom the Federal government is obliged to
               provide a public education. For kids, entertaining activities may provide the best
               education.
                          "
               This opinion made it clear that DoDEA has some discretionin determiningwhat
               activities would be appropriate for the dorm students and that there was no bright line
               rule for making that determination.

Revised        17. Pa~e 19. "Disciplinary Action" paragraphs: Non-concur. The first paragraph
Page 21        references entertainment purchases in the 6-month period ending March 31, 2003, and
               refers to them as a "first offense:' but states that since there were mitigating factors and
               inconsistent guidance, it was "understandable that the recommended penalties were not
               imposed for the first offense." The actions taken to address the entertainment purchases
               by the cardholder that Were discovered after issU1U1ccof the DoDDS-E legal opinion that
               were taken by the DoDDS-E Procurement Office and by the Superintendent of the Isles
               District were appropriate. In addition, the action taken by the Superintendent, Isles
               District with respect to the AO was appropriate. Such actions taken are within the
               purview ofDoDEA management.

               After the legal opinion in June 2003 was received as the result of the DoDDS-Europe
               management request, a letter from a DEPO Team Chief was issued to both the cardholder
               at London Central HS and the approving official on 26 June, 2003, stating that:
               "RecreationaVentertainment purc.hases shall not be made by your cardholders. If these
               types of purchases continue, your cardholders will have their credit cards suspended or
               even terminated",




                                                             5                                 Attachment     1




                                                            42
                                                                                                   Final Report
                                                                                                    Reference




DEPO continued to monitor use of the cardholders, and when it was discovered that a
purchase was made for the London Eye (Ferris Wheel ride) in August 2003, the card was
pemlanently snspended. That particular cardholder has not had their card reinstated. By
this point, all purchases at London Central HS were being approved by the I)ODEA HQ
Legal Office prior to charges being made. Proper sa/:Cguards, and prompt corrective
actions were taken by DoDDS-Europe.

                           ManagemCllt   Control   Program   Review

18. Pal!:e 25, "Adequacy of Management Controls" paral!:raph; Although appropriate                 Page 31
training was in place, proper surveillance procedures were not in place to prevent
documClltation from being incomplete. The majority of the purchases considered to be
questionable were due to incomplete records and documentation       of purcha.'lCs. To
respond to this, more emphasis on documentation     will be included in the annual training,
surveillance will be conducted on an annual sehedule, and the new table of penalties
issued by DoDEA will be strictly adhered to.

                                     Recommendations

 19. Recomm('''I1dations l.a. and l.b.(J): Non-concur.   DoDEA Regulation 7100.4, "Use             Revised
of Appropriated    Funds for the Home-Away-From-Home        Program," incorporates                 Page 25
comments from the Office of the Deputy General Counsel (Fiscal), DoD and as such, was
promulgated without legal objection from tlUit office. It sets forth reasonable guidelines
to ensure that a nexus exists between after-sehool or weekend activities and DoDEA's
congressionally-mandated     mission. DoDEA Regulation 7100.4 addresses tlle unique ill
loco parentis relationship and responsibility  which exists between LCHS' staff and their
residential students. There are no specific "requirements"   of the DoD Financial
Management Regulation to meet. Volume II, chapter 10, paragraph 110207 provides:

As noted in 43. Comp Gen 305 (1963), it is a general rule oflollgstanding toot fuuds
appropriated for government departments or agencies may not be used for entertainment,
except when specifically anthorized by statutc. (emphasis added)

The LCHS domlitories present a unique challenge in providing for the physical and
emotional needs of dormitory students after school and on the weekends.   The HAHP
provides a structured framework, within DoDEA's mission, to successfully operate the
LCSHS dormitories.    A policy separate from that conceming the overall purcha.~e card
program is necessary and appropriate to address the unique aspects of the HAHP.

20.. Recommendations     1.11(2), and (3): Concur, With regard to the purchase of supplies
and services for other than the "Ilome A way From Home" Program, DoDEA intends to
reseind the previous policy document governing the use of the Government Purchase
Card and has developed a draft of AI 8000.1 that was based 011the comments We


                                              6                                  Attlemllcnt   1




                                             43
reeeived nom the 10 Team over the previous six months. This draft AI will replace the
previous version, dated April 3, 200 I and is presently under review for approval. The
draft AI includes guidance on prohibited purebases and the disciplinary actions taken if
the policy is not followed.

Procedures have been put in place in DoDEA's draft Administrative Instruction 8000.1
(AI), paragraph 12, which addresses how vendor price competition must be obtained and
documented for student travel. Addition.alguidance concerning unautborized purchases
sucb as food and water will be addressed in the new draft DoDEA OPC Training Guide.
In addition, alerts will be sent to all cardholders and biUing officials concerning
unauthorized use of the OPC. This will be completed NLT Dec 31., 2004.

Additionally, DS Regulation 7100.3 will be updated to provide for specific exceptions for
food required for Sure Start programs, Special Education students, and tbat required for
curriculum purposes.

21. Recommendation     I.b.(4): Concur. Procedures have been put in place in DoDEA's
draft Administrative instruction 8000.1 (AI), paragraph 12, which addresses how vendor
price competition must be obtained and documented for student travel. This will be
completed NL T Sep 30, 2004.

22. Recommendation l.b.C5): Concur. Procedures to ensure all accountable property is
recorded in property records will be added to the draft Al 8000.1, the training guide, and
to the Purchase Log. This will be developed by DoDEA Headquarters to ensure
consistency among all offices. This will be completed NLT Sep 30, 2004.

23. Recommendation I.e: Concur in part. All cardholders and bil1ing officials will be
completely retrained on the new DoDEA policies and guidance, but the guidance will not
beoverarehing as recommended in I.a. above. Due to the location of aU tbe cardholders,
on site training would take approximately one year to complete. In the interim, all
DoDEA regulations and guidance will be posted on the web page to include cardholder
alerts. In addition, DoDEA is considering developing a web based training program that
all cardholders can access in remote areas. This will be completed NL T Jun 30,2005.

24. Recommendation 1.4: Concur in part. All revised guidance once approved and
signed will be posted on DoDEA's Web site, but it will not be "overarching" guidance as
suggested in I.a. above. This will be completed NLT Dee 30, 2004.

25. Recommendation     l.e:     Concur in part. Revised guidance based upon the Home-
Away-from-Home     program      guidance will be placed on the DoDEA Website by
September 30, 2004.

26. Recommendations     2a'(l    and 2): Concur.


                                                   7                           Attachment    I




                                               44
27. Recommendation 2.bJl);      Coocurin part. See responses above.

28. Recommendation 2.b.(2); Concur in part. See responsl;s above.

29. Recommendation 2.Cc); Non.concur. Appropriate administrative actions have been
taken.

30. Recommendation      2.d; Concur. Reporting of DoDDS-Europe         programs through
DoDEA would be appropriate.      DoDEA Headquarters will develop a format for II semi-
annual Government Purchase Card report addressing compliance with the DoD .Purchase
Card Program. In addition, AI 8000. I will also include the requirement for tbe APCs in
the Procurement satellite office$ to submit this report on II semi.annual   basis. This will
be completed NL T Dee 30, 2004.




                                              8                                  Attachment    I




                                              45
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Robert F. Prinzbach
Colonel William Kelley
Albert L. Putnam
Cynthia G. Williams
Dennis R. Wokeck
William E. Shimp
Clara L. Stanfield
Michelle S. Emigh
Teena R. Propst
Vansamai S. Seumsouk
Shankia S. Knight
Thomas J. McKenna
Susann L. Cobb
